   08/16/07          09:15 FAX 301 903 4656              CAPITAL REGION                                     • 002




DOE F 1325.8
(08-93)                                                                                    Department of Energy
United States Government

 Memorandum
          DATE:       August 15, 2007                             Audit Report Number: OAS-L-07-22
      REPLY TO
       ATTN OF:       IG-34 (A06GT006)
                                                                                                Site"
 SUBJECT:             Report on "Hazardous Chemicals Inventory Management at the Savannah River
               TO:    Manager, Savannah River Operations Office


                      BACKGROUND

                      The Savannah River Site (Savannah River) maintains large inventories of
                      hazardous chemicals for its scientific, environmental cleanup and production
                      operations. Many of these chemicals are known carcinogens; some are corrosive,
                      while others are highly flammable. As such, these chemicals can pose serious
                      health and safety risks to workers and members of the public, the environment,
                      and to emergency first responders if not properly managed and controlled.
                      Department of Energy (Department) regulations require that the hazards of these
                      chemicals be assessed and that on-hand quantities be tracked for both emergency
                      planning and mitigation of associated health and safety risks. Site-level hazardous
                      chemical inventory systems provide the information necessary to perform these
                       activities and to satisfy report requirements established by the Environmental
                      Protection Agency (EPA) and the Occupational Safety and Health Administration
                       (OSHA).

                       The Office of Inspector General (OIG) issued a report on Chemical Safety
                       Protocolsat the Pantex Plant,(DOE/IG-0756, February 2007). This inspection
                       found significant inventory discrepancies at the Pantex Site. It concluded that an
                       inaccurate inventory can have potential negative effects on the emergency
                       assessment and planning process. Because of their importance to the health and
                       safety of workers, the public and the environment, we initiated this audit to
                       determine whether Savannah River adequately manages its hazardous chemical
                       inventories and have made adequate emergency preparations to deal with
                       incidents involving these chemicals.

                       RESULTS OF AUDIT

                        Our review disclosed that Savannah River had developed emergency action plans
                        and procedures to deal with incidents involving hazardous chemicals. These plans
                        specifically considered the impact that the presence of hazardous chemicals could
                        have on emergency situations such as fires, spills, and unplanned releases. While
                        these plans appeared to be appropriate, their ultimate deployment and the
                        effectiveness of planned emergency responses could be diminished because of
08/16/07   09:16 FAX 301 903 4656       _       CAPITAL REGION                                       u003




                                                                                    system
            problems we noted with the accuracy of the hazardous chemical inventory
            at the site.
                                                                                            of
            Our test of Savannah River's hazardous chemical inventory revealed that 84
                                                                                   in  the
            251 (about 33 percent) of the items we sampled could not be found
            individual laboratories or facilities recorded in the inventory  system.  In most
            cases, the quantities observed were less than that  recorded  in the inventory system.
            In some examples, however, the inventory system indicated that no       chemicals
            were present in the laboratory even though we observed that they were. The
            hazardous chemicals containers we sampled came in a variety of sizes but
            typically held from .5 to 2.5 liters.

            Savannah River maintains thousands of containers of hazardous chemicals at the
            site, with many kept in a given laboratory or storage area. Because the site does
            not use a container specific inventory control system, we could not readily
            determine whether the chemicals that we could not locate were missing, had been
            used, or had simply been transferred to other on-site facilities.

            .Inventory Management Practices

             These inventory discrepancies occurred because site officials did not properly
             update the chemical management inventory system and periodic reconciliations
             were not effective or documented. While the Savannah River Management
             Policies Manual requires chemical management officials to update the system
             every 30 days to reflect the transfer or disposal of chemicals, our review disclosed
             that such updates were not always taking place. Reconciliation procedures
             consisted of periodically sending an e-mail to the same chemical managers that
             were not properly updating the inventory management system asking them to
             affirm that their inventory records were accurate. No additional reconciliation of
             verification was performed by site-level or contractor officials.

             Site-level officials told us that they did not expect the hazardous chemical
             inventory at the site to be perfect. The official in charge of the Chemical
             Management Center indicated that he believed that the error rate across the
             Department complex could be as high as 25%, depending upon the level of detail
             captured in the inventory system (i.e. to the room level, container type, etc.) as
             well as what is classified as a discrepancy. He also indicated that controls to
             reduce inventory error rates were costly and required a significant amount of
             manpower to implement. Instead of relying solely on the computer inventory
             systems, site officials also indicated that they monitored the overall inventory
              through the use of analytical procedures to determine whether it was trending up
              over a given period. Finally, officials told us that they used a conservative
              approach of assuming that all chemical containers were full and did not decrement
              the system until the entire container was used.

              While management's approach might help ensure that overall quantities of
              chemicals are properly reported to EPA and OSHA, it does not ensure that
              emergency management considerations are adequately addressed. For example, in
                                                        2
    08/16/07   09:16 FAX 301 903 4656               CAPITAL REGION                                        ]o004


/



                                                                                        fire based
                one possible scenario, first responders may take action to respond to a
                on the mistaken belief that water reactive chemicals are not present in a facility.

                Impact on Health, Safety and Regulatory Compliance
                                                                                          consequences
                Exposure to hazardous chemicals has the potential for serious health
                and accidental releases can result in serious harm to the environment. While
                                                                                                rate of
                adequate measures appear to be in place for planned work activities, a high
                discrepancies in hazardous chemical inventories could potentially have a negative
                impact on emergency action planning. The emergency preparedness planning at
                Savannah River accounts for materials with specific hazards, within explicit
                locations in the facilities. Therefore, if the materials are transferred from one
                location to another, there may be consequences. Given this emergency planning
                does not focus on specific amounts of these materials, simply their presence,
                transfers of chemicals into zones should be evaluated and recorded.

                 SUGGESTION

                 To address the issues in this report, we suggest that the Manager, Savannah River
                 Operations Office, require responsible contractors to provide formal
                 documentation of the quantity of and reason for the adjustments made for each of
                 the inventory items during the periodic reconciliations. We also suggest that the
                 Savannah River Operations Office verify this reconciliation process during the
                 next inventory period.

                 No recommendations are being made in this report and a formal response is not
                 required. We appreciate the cooperation of the Savannah River Operations Office
                 and various Departmental elements thatprovide iformation or assistance.




                                                         Rickey .. Hass
                                                         Assistant Inspector General
                                                           for Financial, Technology, and Corporate Audits
                                                         Office of Audit Services
                                                         Office of Inspector General

                  Attachment




                                                             3
08/16/07     09:16 FAX 301 903 4656                CAPITAL REGION                                          Q005



                                                                                                  Attachment



      OBJECTIVE
                                                                               of Energy
      The objective of our audit was to determine whether selected Department
                                                                            inventories and have
                                                                  chemicals
      (Department) field sites adequately manage their hazardous involving these chemicals.
      made adequate emergency preparations to deal with incidents

      SCOPE
                                                                               was primarily
      The audit was performed between August 2006 and July 2007. Audit .work
                                                                D.C. Site visits were made to the
      performed at the Department's Headquarters in Washington,
      Savannah River Site (Savannah River) in Aiken, South Carolina.

      METHODOLOGY

      To accomplish the audit objective, we:

                * Identified the criteria to define a hazardous chemical;

                *   Met with chemical specialists in the Department's Health, Safety and Security group to
                    discuss best practices and obtain an overview of chemical management;

                *   Reviewed the relevant Federal regulations, Department orders and other documents
                    regarding the management and control of hazardous chemicals;

                *   Obtained information from various sites including lists of their hazardous chemicals;

                *   Reviewed the policies and procedures for chemical handling at the sites visited;

                *   Visited sites to verify their hazardous chemical inventory; and,

                * Analyzed the results of the site visits.

           The audit was conducted in accordance with generally accepted Government auditing standards
                                                                                                   laws and
           for performance audits and included tests of internal controls and compliance with
                                                                                        We   assessed the
           regulations to the extent necessary to satisfy the objectives of the audit.
                                                                                                       and found
           Department's compliance with the Government Performance and Results Act of 1993
           that the Department had not established performance     measures   related to  chemical  management.
           Because our review was limited, it would not necessarily have disclosed all internal control
            deficiencies that may have existed at the time of our audit. We performed limited test work of
                                                                                                          the
            computer processed data and determined that we could not rely on the data produced by
                                                                             not  adequately  maintained.   We
            systems because, as noted in the body of the report, they were
            held an exit conference with Savannah River Site officials on February     9,  2007  and management
            generally agreed with our observations and conclusions.
